                                                Limited Scope Audit
                                                 Peace Corps/China
                                                             Final Report No. IG-12-06-A
                                                                             August 2012
                      O BJ ECTIVE , SCOPE , AND M ETHODOLOGY
In Fiscal Year (FY) 2012, the Office of Inspector General (OIG) Audit Unit conducted reviews
of 15 overseas posts. The objective of these reviews was to identify weak controls, report on
areas of noncompliance, and assess financial and administrative risks. The reviews were also
used to inform OIG of overseas posts that have high risks and weak controls. OIG used the
reviews to plan its overseas posts audits and scheduled its site visits to target the high risk areas.
The posts visited by auditors will receive a full audit and report. Based on the review, auditors
determined that a site visit to Peace Corps/China (hereafter “the post”) was not necessary. This
report communicates the results of the review to enable the post and its regional management
(Region) to better assess and enhance its financial and administrative controls.

The auditors primarily relied on information from headquarters management offices covering
fiscal years 2010, 2011, and 2012. Our scope included vouchering, bills of collection, purchase
and travel cards, staff security certifications, leases, property, medical supplies, and vehicles.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Management concurred with all seven recommendations. As a result, we closed two
recommendations. The remaining five recommendations will remain open pending confirmation
from the chief compliance officer that the documentation reflected in Appendices A and B is
received.

                                           BACKGROUND
                                                     The first group of Volunteers arrived in China
                                                     in 1993. At the time of our review, 162
                                                     Volunteers were working in the education
                                                     sector. The post had three U.S. direct hires, 23
                                                     Personal Service Contracts (PSCs), and 1
                                                     short-term PSC. The Peace Corps’
                                                     Congressional Budget Justification FY 2013
                                                      shows the post’s budget was approximately
                                                      $3.0 million in FY 2012.
Map of China, Source: The World Factbook
                               AREAS OF I MPROVEMENT
IMPREST FUND

We verified that the cashier was properly appointed. We confirmed that the post conducts
monthly imprest fund reconciliations. However, based on review of the last six months of
imprest fund reconciliations, we determined that interim advances were not always returned
timely. In January 2012, the post’s management instructed staff to clear travel advances within
three days.

We also found that the post used a revolving advance to cover medical care and supplies. The
Peace Corps’ Overseas Financial Management Handbook (OFMH) section 13.18 states:

      As the sub-cashier makes payments, he or she will exchange paid receipts for additional cash at least once
      each month.”

      This interim cash advance must be supported by a copy of the authorized purchase document, and
      liquidated (accounted for) within three (3) working days.

The post’s management explained that medical office required cash on hand to pay up-front
costs associated with medical care for Volunteers. Instead of requesting an interim advance
from the cashier each time a Volunteer required services from local hospitals, the medical
officer would use the cash from the monthly interim advance. The medical officer would
provide the cashier with receipts for the paid medical services and the cashier would reissue the
interim advance. By receiving a routine amount of cash the medical office staff operated as a
sub-cashier and not an occasional money holder.

  We recommend:

  1. That the post discontinue the use of a revolving interim advance by either receiving
     approval from Office of Global Accounts Payable for a sub-cashier or issuing interim
     advances only as needed for specific purchases.


VALUE ADDED TAX

A review of the post’s bills of collection shows that the post is not receiving reimbursement for
taxes paid. According to the country agreement, Peace Corps is exempt from taxes paid in
China:

     The Government of China will exempt from all taxes (including the value-added tax on vehicles), customs
     duties, and other charges all Program equipment and supplies introduced into or acquired in China by the
     Government of the United States, or any contractor financed by it, for use hereunder.

China’s value added tax (VAT) rate is set at 17 percent, with a reduced rate of 13 percent that
applies to products such as books and types of oils. The post discussed the possibility of filing
VAT refunds with the U.S. Embassy. However, because Peace Corps is not registered as a
diplomatic agency with the China tax authority, the post cannot use the same method of
claiming reimbursement as the U.S. Embassy.

   We recommend:

   2. That the post pursue obtaining Value Added Tax refunds from the Chinese Government.


MEDICAL SUPPLIES

The post submitted its annual inventory to the Office of Medical Services. The inventory was
signed by the medical clerk, the cashier serving as the medical supply inventory control clerk
(MSICC), and the director of management and operations. The post elected to use its own
format for the medical supply inventory. The post’s inventory tracked medical supplies
purchased, dispensed, and disposed. However, the inventory did not include information about
the physical count and the results of the physical verification. Peace Corps Medical Technical
Guideline 240, “Medical Supplies and Equipment,” includes the official inventory workbook as
an attachment and states:
      This “Control Log” is an electronic Excel spreadsheet provided by VS and is required to capture all
      documentation collected on the forms PC-734A, PC-734B, PC-734D, and PC-734E. The Inventory
      Workbook is the official inventory record for post and is maintained by the MSICC.

   We recommend:

   3. That the medical supply inventory control clerk update the medical supply inventory to
      include results of the physical count and a comparison of the recorded amounts or use the
      medical supply inventory workbook from the Peace Corps Medical Technical Guideline
      240.


PURCHASE AND TRAVEL CARDS

Peace Corps Manual section (MS) 731 paragraph 3.1 states, “It is the policy of the Peace Corps
for employees to use a bank issued credit card (Purchase Card) for the purchase of goods and
services to the maximum extent practicable…” This is consistent with federal policies to
provide a streamlined procurement method that saves government agencies time and
administrative costs. According to the post’s management most vendors in China will not accept
electronic funds transfers or American credit cards for purchases. During our review of FY 11
imprest payments we noted several vendors that were paid over $1,000 each from the imprest
fund. Although vendors may be reluctant to accept electronic payment, the post should continue
to make the request and follow-up to ensure that the vendors have not changed their policy.

The post used its travel card to charge airline and other transportation costs. The monthly travel
card statements were reviewed and approved by the country director in hard copy form and sent
to the chief administrative officer for the Europe, Mediterranean, and Asia region at
headquarters for electronic approval. However, the statements should be approved by the
country director electronically in the Citibank card management system. The post explained that
poor Internet connectivity made electronic approval difficult, so the country director reviewed
hard copy versions of the statements. Recent changes to the information technology at the post
may improve the connectivity and allow the country director to electronically approve the travel
card statements.

   We recommend:

   4. That the director of management and operations continue to pursue the increased use of
      the electronic fund transfers and purchase card for routine payments by following up with
      the vendors that are paid most often with imprest funds and request to use an electronic
      payment method.

   5. That the country director determine whether electronically approving travel card
      statements is feasible given the information technology limitations. If feasible, the
      country director should discontinue the hard copy review and approve travel card
      statements in the Citibank system.


SECURITY CERTIFICATIONS

MS 743, “Personal Services Contracts with Host Country Residents,” procedure states:

      Prior to executing a Personal Services Contract with a host country resident for a contractual term of
      service of fewer than 260 work days (short-term PSC), the following administrative process must be
      completed and documented. The Contracting Officer must ensure that:

          (1) an appropriate check with relevant law enforcement entities concerning the proposed contractor is
          completed and documented;
          (2) the appropriate reference and previous employment checks are conducted;
          (3) the proposed contractor’s name is submitted to the U.S. Embassy for Embassy Name Checks (no
          exterior checks); and
          (4) the Contracting Officer must review this information prior to contract execution.

Using the payment records we were able to develop a list of all PSCs paid in FY 2011 and 2012.
We compared the names of paid PSCs to the Office of Safety and Security’s database used to
track all security certifications for PSCs. We were able to match 49 PSCs. We selected a sample
of 20 PSCs and verified that a copy of the security certification was signed, current, and
maintained in the Office of Safety and Security’s application.

However, post did not have a security certification for a PSC paid $879 through the imprest
fund in FY 2012. The individual was also paid by the post in FY 2009 and 2012. Although the
individual worked for the post on a limited basis, it is important that all PSCs receive proper
certification or background checks, especially if they are frequently contracted with Peace
Corps. MS 743.8.3 states that the process for checking short-term contractors' criminal history
and references “must be repeated every three years for any short-term PSC contracting with
Peace Corps on a recurring basis.” According to the post’s management, the individual was
previously a PSC, then casual labor as needed. Currently the individual will be serving as a
backup Peace Corps medical officer and the post has initiated the security certification process.

  We recommend:

  6. That the director of management and operations obtain the security certifications for its
     short term personal service contracts and submit the appropriate documentation to the
     Office of Safety and Security.


GRANT PROGRAMS

The post had a total of six Volunteers use $8,824.24 in Peace Corps partnership funds beginning
in March 2009. The projects were for reasonable amounts and involved estimated community
contributions of over 45 percent. However, two of the projects were approved in May 2011 but
have not been closed. The post provided documentation showing that one of the two had been
canceled. The other project had not yet been completed and the post is working with the
Volunteer to implement it.

   We recommend:

   7. That the post follow up on outstanding Peace Corps Partnership Project grants and ensure
      Volunteers submit final reports once projects are complete.


OTHER AREAS REVIEWED

We reviewed additional documentation at headquarters including bills of collection, leases,
vehicle reports, Volunteer allowance surveys, and vouchers. We did not identify any significant
issues or weaknesses. However, we did note the following issues already addressed by the
post’s management:

   •   Based on our review of bill of collection logs we noted that the post had recorded bills
       of collection with Peace Corps/China as the debtor. The post discontinued this practice
       in FY 2011.

   •   The post submitted its FY 2011 Administrative Management Control Survey (AMCS) to
       headquarters and self identified areas of weakness related to general services, such as
       filing travel vouchers timely, conducting annual inventories, and reviewing itemized
       phone bills. The post has taken steps to improve these areas.
                          L IST OF R ECOMMENDATIONS
We recommend:

1. That the post discontinue the use of a revolving interim advance by either receiving approval
   from Office of Global Accounts Payable for a sub-cashier or issuing interim advances only as
   needed for specific purchases.

2. That the post pursue obtaining Value Added Tax refunds from the Chinese Government.

3. That the medical supply inventory control clerk update the medical supply inventory to
   include results of the physical count and a comparison of the recorded amounts or use the
   medical supply inventory workbook from the Peace Corps Medical Technical Guideline 240.

4. That the director of management and operations continue to pursue the increased use of the
   electronic fund transfers and purchase card for routine payments by following up with the
   vendors that are paid most often with imprest funds and request to use an electronic payment
   method.

5. That the country director determine whether electronically approving travel card statements
   is feasible given the information technology limitations. If feasible, the country director
   should discontinue the hard copy review and approve travel card statements in the Citibank
   system.

6. That the director of management and operations obtain the security certifications for its short
   term personal service contracts and submit the appropriate documentation to the Office of
   Safety and Security.

7. That the post follow up on outstanding Peace Corps Partnership Project grants and ensure
   Volunteers submit final reports once projects are complete.
APPENDIX A

             AGENCY R ESPONSE
APPENDIX A
APPENDIX A
APPENDIX A
APPENDIX B

                                   OIG C OMMENTS
Management concurred with all seven of the recommendations. As a result, we closed two
recommendations. The remaining five recommendations will remain open pending confirmation
from the chief compliance officer that the documentation listed in the agency’s response is
received through the TeamCentral recommendation tracking system.

In their response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX C

             AUDIT C OMPLETION AND OIG C ONTACT

AUDIT COMPLETION      Assistant Inspector General for Audit Bradley Grubb
                      performed the limited scope audit of Peace Corps/China.




                      Bradley Grubb
                      Assistant Inspector General for Audit

OIG CONTACT           If you wish to comment on the quality or usefulness of this
                      report to help us strengthen our product, please email Assistant
                      Inspector General for Audit Bradley Grubb at
                      bgrubb@peacecorps.gov, or call him at (202) 692-2914.
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
 fraud, or unlawful activity involving Peace Corps programs or
   personnel should contact the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                          Contact OIG

                                 Hotline:
        U.S./International:       202.692.2915
        Toll-Free (U.S. only):    800.233.5874

        Email:                    OIG@peacecorps.gov
        Web Form:                 www.peacecorps.gov/OIG/ContactUs

        Mail:                     Peace Corps Office of Inspector General
                                  P.O. Box 57129
                                  Washington, D.C. 20037-7129




                        For Other Inquiries:
        Main Office:              202.692.2900
